No. 20-1095

IN THE

Supreme Court of the United
States
DARIUS WAYNE HAWS,
Petitioner,
v.
STATE OF IDAHO,
Respondent.
Certificate of Word Count

I hereby certify that the Brief for Idaho Association of Criminal Defense
Lawyers and National Association of Criminal Defense Lawyers as Amici
Curiae in Support of Petitioner contains 3,911 words, excluding the parts
of the document that are exempted by Supreme Court Rule 33.1(d), and
that the brief complies with the limitations established by Rule
33.1(g)(x).
Dated: March 30, 2021
/s/ Jonah J. Horwitz
Jonah J. Horwitz
Counsel for Amici

